  Office of Inspector General
      Audit Report

LESSONS LEARNED FROM THE EAST SIDE
 ACCESS PROJECT CAN ENHANCE FTA’S
  OVERSIGHT OF MTA’S REPORTING ON
      REMAINING ARRA GRANTS
        Federal Transit Administration


        Report Number: MH-2013-098
         Date Issued: June 12, 2013
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Final Report— Lessons Learned From                                       Date:    June 12, 2013
           the East Side Access Project Can Enhance FTA’s
           Oversight of MTA’s Reporting on Remaining
           ARRA Grants
           Federal Transit Administration
           Report No. MH-2013-098

  From:    Joseph W. Comé                                                                Reply to
                                                                                         Attn. of:   JA-40
           Assistant Inspector General for
              Highway and Transit Audits

    To:    Federal Transit Administrator

           The Metropolitan Transportation Authority’s (MTA) East Side Access (ESA)
           project, located in New York City, is one of the largest transit mega-projects in the
           country currently under construction, with a total estimated project cost of over
           $9.8 billion and an estimated completion date of September 2019. ESA’s primary
           purpose is to expand MTA Long Island Rail Road’s (LIRR) commuter rail service
           in Manhattan to include Grand Central Terminal in addition to Penn Station,
           which is expected to shorten travel time for thousands of Long Island commuters
           and ease passenger crowding at Penn Station. The Federal Transit Administration
           (FTA) has committed nearly $2.7 billion in Federal funding to the project,
           including the most American Recovery and Reinvestment Act (ARRA) New Starts
           funding of any project ($195.4 million). 1 As with all ARRA-funded projects,
           MTA’s ESA project has been subject to statutory and Office of Management and
           Budget (OMB) requirements for increased transparency and accountability.

           We initiated this audit in May 2012. 2 However, after Hurricane Sandy struck the
           New York metropolitan area in October 2012, FTA and MTA staff needed to
           prioritize their efforts on restoring full transportation services, which
           understandably delayed our data collection efforts. To accommodate this situation,

           1
             Under ARRA, the Capital Investment Grants Program made $750 million available for FTA’s discretionary New
           Starts and Small Starts Programs. The total Federal funding commitment for each project did not increase; rather, the
           ARRA funding accelerated award of the funds already committed.
           2
             OIG announcement letter, Audit Initiated of FTA’s Oversight of Major Transit Projects in New York City: East Side
           Access, May 14, 2012. All OIG announcement letters and reports are available on our Web site at www.oig.dot.gov.
                                                                                 2


we separated the audit into two parts, with this report providing information
concerning FTA’s compliance with ARRA requirements on the ESA project.
Specifically, for this first report our objectives were to determine whether
(1) MTA’s controls over the materials purchased with ARRA funds were
sufficient to safeguard those items, and (2) FTA ensured that MTA met ARRA’s
certification and reporting requirements for ESA. Our work on the second part of
the audit—an assessment of FTA’s oversight of the ESA project’s cost, schedule,
and local funding risks—is on hold so that we may support oversight of FTA’s
Hurricane Sandy relief funding in accordance with the Disaster Relief
Appropriations Act.

To conduct our ARRA-related work, we performed a physical inventory on a
random sample of about $10.8 million (approximately 57 percent) of materials that
were pre-purchased using ARRA funds. We also reviewed ARRA regulations and
guidance, and evaluated MTA’s ARRA certifications and reports and FTA’s
oversight of those reports. We interviewed FTA Headquarters and Region II
officials, and MTA officials. We conducted our work in accordance with generally
accepted Government auditing standards. Exhibit A provides more detail on our
audit scope and methodology.

BACKGROUND
As figure 1 illustrates, the ESA project will connect the MTA LIRR’s commuter
rail lines to an existing tunnel under the East River and to a new LIRR terminal at
Grand Central Terminal—along with modifications to existing track alignments
and construction of a storage yard and maintenance facilities.

Figure 1. ESA Project Map




Source: MTA
                                                                                                              3


Over $2.6 billion of the nearly $2.7 billion in Federal funds committed to the ESA
project are from FTA’s New Starts program, which provides Federal financial
support for locally planned and operated public transit. The ESA project’s New
Starts funding includes $195.4 million in ARRA New Starts funds for ESA that
FTA awarded in March 2010 and that MTA expended by August 2010. New Starts
funds usually require a non-Federal match when Federal funds are expended, but
FTA deferred this local match for the ARRA funds through the end of the New
Starts payout period.

ARRA established key requirements for recipients. ARRA Section 1511 requires
that, for funds made available to State or local governments, the chief executive
must (1) certify that each ARRA investment has received the full review and
vetting required by law and (2) accept responsibility that it is an appropriate use of
taxpayer dollars. In addition, ARRA Section 1512 requires recipients to submit
quarterly reports on their use of ARRA funds that must include the name,
description, evaluation of the completion status, and detailed information on any
subcontracts or subgrants awarded. OMB and FTA provided related guidance on
ARRA requirements, and FTA established processes to perform oversight of its
ARRA grantees. In addition to the ARRA-specific requirements, FTA’s ARRA
grantees were subject to FTA’s existing grant management requirements,
including those to safeguard federally funded assets in accordance with FTA
Circular 5010.1D. See Exhibit B for additional information on ARRA
requirements, related OMB and FTA guidance, and the ESA ARRA New Starts
grant.

RESULTS IN BRIEF
MTA safeguarded the ESA materials purchased with ARRA funds. The ESA
ARRA New Starts grant provided MTA with over $19 million to procure materials
in advance—such as wire, cable, conduit, and rail—and to store them until needed
for installation on the project. We performed a physical inventory on a random
sample of about $10.8 million (about 57 percent) of materials stored in MTA
LIRR’s dedicated ESA warehouse and determined that the materials were present
in the quantities expected.

MTA met ARRA certification requirements for the ESA ARRA New Starts funds
but its Section 1512 reports omitted required data 3 that FTA quality reviews did
not detect. Specifically, MTA’s final report did not include required vendor

3
  OMB Guidance related to ARRA Section 1512 requires recipients to submit quarterly reports on their use of ARRA
funds until they meet the requirements for submitting a final report. According to OMB guidance M-10-14, Updated
Guidance on the American Recovery and Reinvestment Act (dated March 22, 2010), recipients may submit a final
Section 1512 report when: (1) the award period has ended, all ARRA funds are received, and the project status is
complete; or (2) the award has been terminated or cancelled.
                                                                                                                     4


payment information for over $19 million (nearly 10 percent) of the ESA ARRA
grant funding. The omitted $19 million in payments were for materials MTA
procured in advance—the same materials we inventoried at MTA LIRR’s
warehouse. OMB guidance on Section 1512 reporting requires detailed data on all
vendor payments over $25,000. Yet, MTA did not report 11 such payments in its
final report. According to OMB guidance, these omitted payments are considered
material omissions because required data were not reported. 4 MTA determined
that these omissions resulted from an issue with the processes used to develop the
report data. FTA’s data quality reviews did not account for instances of
underreported vendor data and, therefore, did not identify these omissions in
MTA’s Section 1512 reports. Accordingly, FTA underreported vendor payment
data to the public. 5 While MTA has fully spent its ESA ARRA grant funds, issues
with MTA’s reporting processes and FTA’s data quality checks could reduce the
accuracy of MTA’s Section 1512 reports going forward. MTA is still responsible
for submitting Section 1512 reports for its three remaining FTA ARRA grants—
(1) Metro-North/New York City Transit Fixed Guideway Modernization,
(2) Fulton Street Transit Center, 6 and (3) LIRR/Metro-North Railroad/New York
City Transit Formula. These three ARRA grants had a total of $106.7 million in
unexpended ARRA funds through March 31, 2013.

We are making recommendations to improve MTA’s Section 1512 reporting and
FTA’s data quality review processes for MTA’s remaining FTA ARRA grants.

MTA SAFEGUARDED ESA MATERIALS PURCHASED WITH
ARRA FUNDS
We determined that MTA safeguarded the ESA materials it purchased with ARRA
funds in accordance with grant management requirements in FTA Circular
5010.1D. The ESA ARRA New Starts grant provided MTA with over $19 million
to procure materials—such as wire, cable, conduit, and rail—in advance and to
store them until needed for installation on the project. MTA implemented controls
to safeguard these materials. For example, MTA stores materials purchased for the
ESA project in a dedicated LIRR warehouse protected by a fence and a security
system. In addition, LIRR’s warehouse staff maintains a list of personnel who are
4
  According to OMB M-09-21, Implementing Guidance for the Reports on Use of Funds Pursuant to the American
Recovery and Reinvestment Act of 2009 (dated June 22, 2009), material omissions are instances where required data
are not reported or where reported information is not otherwise responsive to the data requests. Material omissions
result in significant risk that the public is not fully informed as to the status of a Recovery Act project or activity.
5
  The Section 1512 reporting data are made public using the following process: after a recipient reports its data on
www.FederalReporting.gov, the Federal agency that awarded the grant reviews the data, and the Recovery
Accountability and Transparency Board releases the data on www.recovery.gov. For its grantees, FTA also posts the
released ARRA Section 1512 data from www.recovery.gov on its Web site.
6
  We previously reported on FTA’s oversight of the Fulton Street Transit Center project, including its oversight of
ARRA funding. See New York City Fulton Street Transit Center: FTA’s Sustained Focus on Key Risk Areas Will Be
Needed Until the Project Is Completed (Report Number MH-2011-150), August 15, 2011.
                                                                                                                        5


authorized to charge out materials and assigns all materials charged out to a
project number. The MTA ESA project office is responsible for generating
documentation for each charge out, and LIRR performs periodic inventories of the
materials. We performed a physical inventory on a random sample of about
$10.8 million (approximately 57 percent) of the ESA ARRA materials that were
purchased in advance and determined that the materials were present in MTA
LIRR’s warehouse in the quantities expected. 7

MTA MET ARRA CERTIFICATION REQUIREMENTS BUT
OMITTED REQUIRED REPORTING DATA THAT FTA QUALITY
REVIEWS DID NOT DETECT
Although MTA met ARRA certification requirements for the ESA ARRA New
Starts funds, it omitted required vendor payment information from its Section
1512 reports. FTA’s data quality reviews of MTA’s Section 1512 reports were not
sufficient to detect these omissions. According to OMB guidance, these omitted
payments are considered material omissions because required data were not
reported, and OMB specifically calls for data quality reviews of Section 1512
reports to identify material omissions. As a result, MTA’s ESA ARRA vendor
payment information was underreported on FTA’s ARRA Web site and
www.recovery.gov.

MTA’s Section 1511 Certification for the ESA ARRA New Starts Funds
Met Requirements
MTA issued a timely Section 1511 certification for the ESA ARRA New Starts
grant that met ARRA requirements and followed FTA’s guidance on
implementing those requirements. ARRA Section 1511 requires that, for funds
made available to State or local governments, the chief executive certify that each
ARRA investment has received the full review and vetting required by law. FTA
guidance also states that the certification must provide a description of the project,
total funding, and ARRA funding. Our review determined that MTA’s
certification included the required statements, as well as a description of the
investment, estimated total cost, and amount of ARRA funds to be used. Although
the certification contained one error—MTA misstated the source of the ARRA
funds—it had no material effect on the statements.



7
  After we completed our inventory, the District Attorney from Nassau County, NY, announced on January 25, 2013,
that 15 LIRR employees were charged with stealing more than $250,000 of new and used copper wire from other LIRR
facilities over a 3-year period. In response to this incident, the LIRR reported that it is taking immediate action to curb
employee thefts and tighten security measures. MTA stated that, as of February 2013, the reported thefts did not
involve the LIRR warehouse that stores the ESA materials.
                                                                                                               6


FTA’s Data Quality Reviews Did Not Detect MTA’s Omission of
Required Information From Its Section 1512 Reports
FTA data quality reviews were insufficient to detect that MTA did not report
required vendor payment information for over $19 million (nearly 10 percent) of
the ESA ARRA grant funding in its final report. OMB guidance requires Federal
agencies to perform data quality reviews on all Section 1512 reports and states that
the reviews are intended to avoid two key reporting problems—material omissions
and significant reporting errors. OMB defines material omissions as instances
where required data are not reported or where reported information is not
otherwise responsive to the data requests. Accordingly, MTA’s vendor payment
omissions are considered material because MTA did not include detailed reporting
for vendor payments over $25,000, which ARRA requires. FTA acknowledged
that MTA’s ESA Section 1512 reports should have included these vendor
payments to comply with OMB guidance but did not agree that these omissions
were material.

To comply with ARRA Section 1512, MTA submitted three quarterly reports on
the use of ESA ARRA grant funds, including a final report submitted in October
2010. As figure 2 below shows, the final ESA Section 1512 report provided
detailed information on four vendor payments over $25,000—totaling about
$176.4 million.

Figure 2. Excerpt from ESA ARRA Final Section 1512 Report

VENDOR TRANSACTIONS

GRAMERCY GROUP, INC. – NY-36-0002                  GRANITE-TRAYLOR-FRONTIER (JV) – NY-36-0002
Product & Service Description: Madison Yard        Product & Service Description: Construct Queens Bored
Demolition                                         Infrastructure
Payment Amount: $31,663,054                        Payment Amount: $139,031,054

PERINI CORPORATION – NY-36-0002                    YONKERS CONTRACTING CO, INC – NY-36-0002
Product & Service Description: Harold Structures   Product & Service Description: East 44th St. and 245 Park
(Part 2A)                                          Ave. Entrance
Payment Amount: $2,065,559                         Payment Amount: $3,596,834
Source: www.recovery.gov

Our review identified 11 additional vendor payments over $25,000 that were not
included in MTA’s final Section 1512 report. MTA inadvertently omitted all
vendor payments related to advanced procurement of materials—the same
materials we inventoried at MTA LIRR’s warehouse. After we shared our findings
with MTA, MTA determined that the algorithm it used to develop its Section 1512
reports for all ARRA grants was set up to report only vendors that had job hours
associated with their contracts. Because the vendors providing materials did not
                                                                                 7


charge job hours, the algorithm did not include them in the reports. MTA is
evaluating the effect that this algorithm issue may have had on the Section 1512
reports for its other ARRA grants.

To carry out OMB’s requirement to perform data quality reviews on all Section
1512 reports, FTA developed a Data Quality Review Plan (Plan). The Plan calls
for FTA to perform two different checks of vendor payments in Section 1512
reports but does not include a step that would identify underreporting of vendor
payments. FTA’s first step for vendor payments is to check whether the reports
have expenditures over an established threshold and to flag any reports that do not
include any vendor information. Because MTA reported some vendor information,
it met the requirements of the first check. The second step is to check the amount
paid to vendors with the total award amount and to flag any report where the
amount paid to vendors exceeds the total award. Because MTA underreported its
vendor information, the second FTA check would not have detected an error.

FTA would likely have detected MTA’s underreporting of vendor payments if the
Plan had included an additional step to total the vendor payments and subaward
amounts in the final report, and then compare that total with the amount expended.
According to FTA, the administrative costs associated with performing a data
quality check to flag underreported vendor payments outweigh the benefits.
However, limiting such checks to the final report could address FTA concerns
about the additional burdens imposed.

Further, because FTA’s data quality reviews did not detect MTA’s reporting
omissions, the ARRA information reported to the public is inaccurate. The Section
1512 reporting data are made public using the following process: after MTA
reports its data on www.FederalReporting.gov, FTA reviews the data, and the
Recovery Accountability and Transparency Board releases the data on
www.recovery.gov. FTA also posts the released data from www.recovery.gov for
its grantees on its Web site to comply with the ARRA Section 1512 requirement to
do so. However, the information on both www.recovery.gov and FTA’s Web site
underreported MTA’s vendor payment information for the ESA ARRA funds by
about $19 million.

Although MTA has now spent all of its ESA ARRA funds, issues with MTA’s
reporting algorithm and FTA’s data quality checks could reduce the accuracy of
MTA’s Section 1512 reports going forward. MTA is still responsible for
submitting Section 1512 reports for its three remaining FTA ARRA grants:
(1) Metro-North/New York City Transit Fixed Guideway Modernization,
(2) Fulton Street Transit Center, and (3) LIRR/Metro-North Railroad/New York
City Transit Formula, which had a total of $106.7 million in unexpended funds
through March 31, 2013. As required by OMB, MTA must continue to submit
                                                                                 8


Section 1512 reports for these grants until all ARRA funds are expended or the
project is completed.

CONCLUSION
The ESA project, which is designed to provide more efficient transportation
services for thousands of travelers into Manhattan, received more ARRA New
Starts funding than any other single transit project in the country. MTA took steps
to safeguard the materials purchased with ARRA funds and has submitted all
required ARRA reports. However, more could have been done to ensure that its
ESA Section 1512 reports contained complete and accurate information. FTA
needs to work with MTA to improve reporting on any remaining ARRA funds and
make targeted improvements to its own data quality reviews, so that Congress and
the public have access to more accurate ARRA-related information.

RECOMMENDATIONS
We recommend that the Federal Transit Administrator:

1. Identify and validate the steps MTA plans to take to improve the accuracy of
   the vendor payment data in its Section 1512 reports to prevent future
   omissions; and

2. Perform an additional data quality check when reviewing the final report for
   each of MTA’s three remaining FTA ARRA grants to compare total vendor
   payment and subaward amounts with the total amount expended.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FTA with our draft report on April 16, 2013. FTA provided its
formal response on May 28, 2013. FTA’s formal response is included in its
entirety as an appendix to this report. FTA fully concurred with our two
recommendations and provided appropriate planned actions and target dates for
their completion. FTA’s planned actions are responsive to our recommendations,
and we consider the two recommendations resolved but open pending completion
of all planned actions.

ACTIONS REQUIRED
FTA’s planned actions for our two recommendations are responsive. In
accordance with follow-up provisions in Department of Transportation Order
8000.1C, we request that FTA provide our office with documentation
                                                                              9


demonstrating completion of its planned actions within 30 days of completion.
Both recommendations will remain open pending receipt of this documentation.

We appreciate the courtesies and cooperation of FTA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-5630 or Anthony Zakel, Program Director, at (202) 366-0202.

                                       #

cc: FTA Audit Liaison (TBP-30)
    DOT Audit Liaison (M-1)
                                                                                 10



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from June 2012 through April 2013 in accordance with
generally accepted Government auditing standards as prescribed by the
Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

To assess whether MTA has sufficient controls to safeguard the materials
purchased with ARRA funds, we obtained a statistically selected sample of nearly
$14.4 million (75 percent) of materials that were pre-purchased using ARRA
funds. With the exception of very large materials such as rails, the pre-purchased
materials were stored in the MTA LIRR’s ESA warehouse in Glendale (Queens),
NY. Our sample included about $3.5 million in rails that LIRR stored along its
right of way. Due to the dangers of physically inspecting this area, we confirmed
the presence of the rail but did not count individual rails. We performed a physical
inventory on the about $10.8 million of materials in the sample that were stored in
the ESA warehouse—approximately 57 percent of the materials purchased with
the ARRA funds. We inventoried these materials because we determined these
materials are susceptible to fraud, waste, or abuse.

To assess whether FTA ensured that MTA met ARRA certification and reporting
requirements for ESA, we reviewed ARRA regulations and guidance, evaluated
MTA’s ARRA certifications and reports, and assessed FTA’s oversight of those
reports. We also interviewed FTA Headquarters and Region II officials and MTA
officials.




Exhibit A. Scope and Methodology
                                                                                                                11


EXHIBIT B. ADDITIONAL BACKGROUND INFORMATION
MTA received $195.4 million in ARRA New Starts funds for the ESA project.
The funding was awarded for six activities, as shown in table 1.
Table 1. ESA ARRA New Starts Grant Budget
                                                                                                                       a
Grant activity                                                                 FTA funding Total eligible cost
Advanced procurement materials
1   Advanced procurement materials for Harold Interlocking                     $ 2,522,192            $ 6,005,219
2   Advanced procurement materials for third-party systems                      16,531,307             39,360,255
                                                          b
    Subtotal for advanced procurement materials                                 19,053,499             45,365,474

Other activities
3   Queens bored tunnels                                                       139,031,054            331,024,414
4   44 St. vent structure and 245 Park Ave. entrance                              3,596,834              8,563,890
5   Harold Interlocking structures, part 2                                        2,065,559              4,917,998
6   Madison Yard demolition and site clearance                                  31,663,054             75,388,224
    Subtotal for other activities                                              176,356,501            419,894,526

Totals                                                                       $195,410,000           $465,260,000
a
  MTA was required to provide almost $270 million in non-Federal funds to match the ARRA funds (the difference
between the FTA funding and total eligible cost columns). MTA’s match was 42 percent of the total eligible cost.
Through March 30, 2013, MTA had provided about $187 million (40 percent) of its required match.
b
  We performed a physical inventory on a sample of about $10.8 million (approximately 57 percent) of the $19,053,499
in materials that MTA procured in advance using ARRA funds.
Source: FTA’s Transportation Electronic Award Management system

ARRA established key requirements for recipients, and OMB and FTA provided
related guidance. FTA also established oversight processes. For example:

• ARRA Section 1511 requires that, for funds made available to State or local
  governments, the chief executive must certify that each ARRA investment has
  received the full review and vetting required by law and that the chief
  executive accepts responsibility that it is an appropriate use of taxpayer dollars.
  Accordingly, FTA guidance states that grantees should include the statements
  that (1) the project(s) have “received the full review and vetting required by
  law” and that (2) the appropriate official “accepts responsibility” that the
  project(s) are “an appropriate use of taxpayer (ARRA) dollars.” FTA guidance
  also states that the certification must provide a description of the project(s),
  total funding, and ARRA funding.
• ARRA Section 1512 requires recipients to submit quarterly reports on their
  use of ARRA funds. These quarterly reports must include the name,
  description, evaluation of the completion status, estimate of the number of jobs
  created and retained, and detailed information on any subcontracts or subgrants

Exhibit B. Additional Background Information
                                                                               12


  awarded. OMB guidance on implementing ARRA Section 1512 requires
  reviews for data quality (i.e., accuracy, completeness, and timely reporting of
  information) intended to emphasize the avoidance of two key data problems—
  material omissions and significant reporting errors. The reports are made public
  using the following process: after a recipient reports its data on
  www.FederalReporting.gov, the Federal agency that awarded the grant reviews
  the data, and the Recovery Accountability and Transparency Board releases the
  data on www.recovery.gov. Section 1512 also requires Federal agencies to post
  the recipient report information on a Web site each quarter.




Exhibit B. Additional Background Information
                                                        13


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                 Title

Anthony Zakel                        Program Director

George Lavanco                       Project Manager

Tiffany Mostert                      Senior Analyst

Michael Dzandza                      Auditor

Rosa Scalice                         Auditor

Joseph Tschurilow                    Auditor

Petra Swartzlander                   Statistician

Megha P. Joshipura                   Statistician

Amy Berks                            Senior Counsel

Christina Lee                        Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                                     14



           APPENDIX. AGENCY COMMENTS

                                                                 Memorandum
           U.S. Department
           of Transportation
           Federal Transit
           Administration


Subject:   INFORMATION: Management Response to the Office                   Date:   May 28, 2013
           of Inspector General Draft Report on FTA’s East Side
           Access (ESA) ARRA Reporting
 From:     Peter M. Rogoff                                              Reply to
           Administrator
                                                                        Attn. of:   Dominique Paukowits
                                                                                    (202) 366-5152
    To:    Calvin L. Scovel III
           Inspector General

           FTA has established and implemented robust oversight measures to ensure recipients of
           the American Recovery and Reinvestment Act (ARRA) met reporting requirements under
           Section 1512. These requirements placed unprecedented expectations on FTA to ensure
           that its grant and contract recipients provide timely, complete, and accurate information
           on the projects funded under ARRA. To respond to these challenges, FTA offered
           unparalleled customer service, engaged in cycles of learning and refinement to improve
           its work processes, and produced results for timely and accurate reports that place it in
           the Federal government’s top echelon, when FTA’s results are compared with other
           agencies.

           To ensure agencies complied with 1512 reporting, FTA educated over 600 grant
           recipients on reporting requirements and the use of the reporting systems. FTA ensured
           that over 900 reports were submitted within a narrow window of time and contained
           accurate data and transparent narrative information. As a result, since the beginning of
           the Section 1512 reporting process in 2009, over 95% of all FTA grantee reports have
           been submitted by the deadline for each reporting period.

           FTA has also made a concerted effort to identify errors or potential errors in Section 1512
           reports and to reach out to our recipients to request that they correct mistakes. These
           efforts led to a reduction in the error rate over time, with errors or likely errors declining
           65 percent from an already low 1.02 per report in the first reports submitted in October
           2009 to 0.35 errors per report in the 4th quarter of 2012. As a result, FTA’s transit capital
           assistance grant program consistently ranks in the top 10 out of over 200 Federal
           governmental ARRA programs in terms of the number of corrections made to Section
           1512 reports, according to www.recovery.gov.




           APPENDIX. AG ENCY COMMENTS
                                                                                       15


RECOMMENDATIONS AND RESPONSE

  Recommendation #:1 FTA should identify and validate the steps MTA plans to
  take to improve the accuracy of vendor payment data in its Section 1512 reports to
  prevent future omissions.

  Response: Concur. FTA will request that MTA provide information to ensure that
  the agency has procedures in place to avoid under-reporting vendor payments in their
  Section 1512 reports. FTA will request that MTA provide us with this information by
  June 30, 2013, which is prior to the start of the next Section 1512 reporting period.
  FTA will validate that MTA has taken sufficient steps to avoid under-reporting of
  vendor payments by implementing our response to recommendation #2 (see below).

  Recommendation #:2 FTA should perform an additional data quality check when
  reviewing the final report for each of MTA’s three remaining FTA ARRA grants to
  compare total vendor payment and subaward amounts with the total amount
  expended.

  Response: Concur. FTA will review the Section 1512 reports submitted for MTA’s
  three remaining open ARRA grants and perform a data quality check that compares
  the sum of the vendor payments reported and the subrecipient payments reported to
  the total expenditures reported. If the sum of vendor payments and subrecipient
  payments do not equal the total expenditures reported, FTA will enter a comment into
  the MTA’s Section 1512 report via www.federalreporting.gov to note the discrepancy
  and request that MTA follow up to confirm whether the discrepancy is the result of
  vendor payments being under-reported or whether there is some other reason for the
  discrepancy. MTA will be expected to either update the data provided in their 1512
  report or provide a response to FTA explaining the cause of the discrepancy.

  FTA will implement this additional data quality check and communication with MTA
  on a quarterly basis beginning with the next Section 1512 Federal Agency review
  period which takes place from July 14-29, 2013.

  We appreciate this opportunity to offer additional perspective on the OIG draft report.
  We also appreciate the courtesies of the OIG staff in conducting this review. Please
  contact Henrika Buchanan-Smith at 202-366-4020 with any questions or requests for
  additional assistance.




APPENDIX. AG ENCY COMMENTS
